No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
IN RE DONALD J. TRUMP
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 9th day of September, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,899
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
September 9, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 9, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

IN RE DONALD J. TRUMP
LOREN LINN ALIKHAN
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
FOR THE DISTRICT OF COLUMBIA
400 6TH STREET, NW
SUITE 8100
WASHINGTON, DC 20010
202-727-6287
LOREN.ALIKHAN@DC.GOV
STEPHANIE E. LITOS
OFFICE OF THE ATTORNEY GENERAL
FOR THE DISTRICT OF COLUMBIA
OFFICE OF THE SOLICITOR GENERAL
400 6TH STREET, NW
WASHINGTON, DC 20010
KARL ANTHONY RACINE
ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
FOR THE DISTRICT OF COLUMBIA
OFFICE OF THE SOLICITOR GENERAL
400 6TH STREET, NW
SUITE 650 NORTH
WASHINGTON, DC 20010
202-724-6610
LAURA C. BECKERMAN
NOAH D. BOOKBINDER
NORMAN L. EISEN
STUART CRAIG MCPHAIL
CITIZENS FOR RESPONSIBILITY
& ETHICS IN WASHINGTON
1101 K STREET, NW
SUITE 201
WASHINGTON, DC 20005
202-408-5565
LBECKERMAN@CITIZENSFORETHICS.ORG
SMCPHAIL@CITIZENSFORETHICS.ORG

DEEPAK GUPTA
DANIEL TOWNSEND
GUPTA WESSLER PLLC
1900 L STREET, NW
SUITE 312
WASHINGTON, DC 20036
202-888-1741
DEEPAK@GUPTAWESSLER.COM
JOSEPH M. SELLERS
CHRISTINE ELIZABETH WEBBER
COHEN MILSTEIN SELLERS & TOLL, PLLC
1100 NEW YORK AVENUE, NW
SUITE 500
WASHINGTON, DC 20005-3965
202-408-4600
JSELLERS@COHENMILSTEIN.COM
BRIAN E. FROSH
ATTORNEY GENERAL
STEVEN MARSHALL SULLIVAN
ASSISTANT ATTORNEY GENERAL
LEAH J. TULIN
OFFICE OF THE ATTORNEY GENERAL
OF MARYLAND
CONSUMER PROTECTION DIVISION
200 ST. PAUL PLACE
20TH FLOOR
BALTIMORE, MD 21202
410-576-6324
BFROSH@OAG.STATE.MD.US
LTULIN@OAG.STATE.MD.US
CRAIG THOMAS MERRITT
CHRISTIAN & BARTON, LLP
1200 MUTUAL BUILDING
900 EAST MAIN STREET
SUITE 1200
RICHMOND, VA 23219-3095

JAN I. BERLAGE
GOHN HANKEY & BERLAGE LLP
201 NORTH CHARLES STREET
SUITE 2101
BALTIMORE, MD 21201-0000
410-752-9300
JBERLAGE@GHSLLP.COM
JOSH BLACKMAN
1303 SAN JACINTO STREET
HOUSTON, TX 77002
ROBERT WILLIAM RAY
ZEICHNER ELLMAN & KRAUSE LLP
1211 AVENUE OF THE AMERICAS
40TH FLOOR
NEW YORK, NY 10036
212-223-0400
RRAY@ZEKLAW.COM
CARRIE SERVERINO
JUDICIAL EDUCATION PROJECT
3220 NORTH STREET, NW
WASHINGTON, DC 20007
HAROLD HONGJU KOH
YALE LAW SCHOOL
127 WALL STREET
NEW HAVEN, CT 06511
PHILLIP MICHAEL SPECTOR
MESSING & SPECTOR LLP
1200 STEUART STREET
UNIT 1414
BALTIMORE, MD 21230

MARK RANKIN HERRING
ATTORNEY GENERAL
TOBY JAY HEYTENS
MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
OF VIRGINIA
202 NORTH 9TH STREET
RICHMOND, VA 23219
804-786-7704
OAGCRIMINALLITIGATION@OAG.STATE.VA.US
THEYTENS@OAG.STATE.VA.US
MKALLEN@OAG.STATE.VA.US
BRITTANY MARIE JONES
JONES DAY
51 LOUISIANA AVENUE, NW
WASHINGTON, DC 20001-2113
202-879-3656
BJONES2@OAG.STATE.VA.US
DEVIN M. MISOUR
BRIAN T. PHELPS
COLIN E. WRABLEY
REED SMITH, LLP
225 5TH AVENUE
SUITE 1200
PITTSBURGH, PA 15222
CWRABLEY@REEDSMITH.COM
M. PATRICK YINGLING
REED SMITH, LLP
10 SOUTH WACKER DRIVE
40TH FLOOR
CHICAGO, IL 60606-7484
312-207-2834
MPYINGLING@REEDSMITH.COM
ANTHONY JOVI MAY
JEAN MARY ZACHARIASJEWICZ
BROWN GOLDSTEIN & LEVY, LLP
120 EAST BALTIMORE STREET
SUITE 1700
BALTIMORE, MD 21202-0000
410-962-1030
AMAY@BROWNGOLD.COM
JMZ@BROWNGOLD.COM

ERIC LEON CRAMER
CANDACE J. ENDERS
H. LADDIE MONATAGUE
BERGER & MONTAGUE, PC
1818 MARKET STREET
SUITE 3600
PHILADELPHIA, PA 19103
ERIC C. LAI
MELISSA H. MAXMAN
COHEN & GRESSER LLP
2001 PENNSYLVANIA AVENUE, NW
SUITE 300
WASHINGTON, DC 20006
202-851-2070
MMAXMAN@COHENGRESSER.COM

